      Department of Homeland Security





      Costs Claimed by Metropolitan Transportation 

                Authority of New York Under 

                  Transit Security Grants
 





            American Recovery and Reinvestment Act of 2009



OIG-13-83                                                    April 2013
 

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                     APR 29 2013

MEMORANDUM FOR:		            David J. Kaufman
                             Acting Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:	                       Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:		                   Costs Claimed by Metropolitan Transportation Authority of
                             New York Under Transit Security Grants

Attached for your information is our final letter report, Costs Claimed by Metropolitan
Transportation Authority of New York Under Transit Security Grants. We incorporated
the formal comments from the Associate Administrator for Policy, Program Analysis and
International Affairs in the report.

The report contains one recommendation to resolve the questioned costs. The
Associate Administrator concurred with the recommendation. Based on information
provided in your response to the draft report, we consider the recommendation
resolved and closed.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on
our website for public dissemination.

Major contributors to this report are Roger LaRouche, Audit Director; Karl Gallagher,
Audit Manager; Jerome Fiely, Auditor; and Stephen Doran, Report Referencer.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Background
   The AmericanfRecoveryfandfReinvestmentfActfoff2009, as amended (Recovery Act),
   appropriated $610 million to the Federal Emergency Management Agency (FEMA). Of
   that amount, the Recovery Act allocated $150 million for Public Transportation Security
   Assistance and Railroad Security Assistance (Transit Grants) under sections 1406 and
   1513 of the ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff2007, as
   amendedf(hereinafter referred to as Transit Security Grants).

   In 2009, FEMA awarded two Transit Security Grants to the Metropolitan Transportation
   Authority of New York (Authority):

   •		 Grant No. 2009-RA-R1-0103 for $11,813,686 for installation of perimeter protection
       at railroad stations. As of June 30, 2012, the Authority had claimed project costs
       totaling $6,755,539 for the period from September 1, 2009, through June 30, 2012.

   •		 Grant No. 2009-RA-R1-0100 for $35,904,000 to enhance the Nation’s transit
       infrastructure. The Authority subgranted the funds to the New York City Police
       Department (NYPD) to finance antiterrorist teams. As of June 30, 2012, the
       Authority had claimed project costs totaling $17,787,925 for the period from
       August 1, 2009, through June 30, 2012.

   Reimbursement for eligible project costs is based on the grant agreement; Office of
   Management and Budget (OMB) Circular A-87, Revised, CostfPrinciplesfforfState,fLocalf
   andfIndianfTribalfGovernments;fand FEMA guidance.1 The FEMA grant agreement also
   requires the Authority to comply with Recovery Act provisions to submit quarterly
   recipient reports to the Federal Government; pay prevailing wages as determined by the
   Secretary of Labor; and use American-made iron, steel, and manufactured goods.

   The objective of this audit was to determine whether costs claimed by the Authority
   were allowable, allocable, and reasonable according to the funding agreement and
   applicable Federal requirements.




   1
    FEMA guidance for the Transit Security Grants is contained in the Department of Homeland Security’s
   AmericanfRecoveryfandfReinvestmentfActfoff2009, TransitfSecurityfGrantfProgram, Guidancefandf
   ApplicationfKit, May 2009.

www.oig.dhs.gov                                      2	
                                     	      OIG-13-83 

                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Results of Audit
   We determined that costs of $6,755,539 claimed under Grant No. 2009-RA-R1-0103
   were allowable, allocable, and reasonable. The majority of the claimed costs consisted
   of construction costs for the installation of perimeter protection. Under Grant No.
   2009-RA-R1-0100, we questioned $6,284,342 of the total grant costs of $17,787,925.
   The questioned costs are payroll charges for recruits that NYPD hired to replace
   experienced officers who would be transferred to the antiterrorist teams. The approved
   grant budget included funds only to pay the antiterrorist teams. We also determined
   that the Authority fulfilled the requirements for submitting quarterly reports, paying
   prevailing wages, and complying with the requirement for buying goods manufactured
   in America. Furthermore, we obtained and reviewed the April 1–June 30, 2011,
   quarterly report and noted that it contained adequately supported jobs data.

   Questionable Costs – $6,284,342

   The Authority claimed NYPD payroll costs totaling $17,787,925, which included
   $11,503,583 for antiterrorism teams and $6,284,342 for trainees. The trainees’ salary
   costs covered the 6-month period while they were at the training academy ($4,332,510)
   and a subsequent 3-month period when they were assigned to transit security before
   the antiterrorism teams were deployed in the New York Transit System ($1,951,832).
   According to NYPD officials, this backfill method was preferred because it avoided
   placing less experienced officers on the antiterrorism teams. However, the grant
   agreement did not include funds for training replacement officers.2 The approved
   project provided funding for the straight-time salaries and fringe benefits of the officers
   assigned to the antiterrorism teams of $34,812,960 for a 36-month period, and support
   costs of $1,091,040. As a result, we questioned the salary costs of the replacement
   officers totaling $6,284,342 because the activity was not covered by the grant agreement.

   Recommendation
   We recommend that FEMA’s grant officer resolve the $6,284,342 of questioned grant
   costs.




   2
    The conditions of the approved grant agreement incorporate the grantee’s Application Kit and approved
   project budget.

www.oig.dhs.gov                                      3                                             OIG-13-83

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Potential Monetary Benefits 


                              Classification of Monetary Benefits
                                                       Questioned
                                         Funds To Be              Questioned
                                                         Costs –
            Finding          Rec. No.       Put to                 Costs –       Total
                                                      Unsupported
                                          Better Use                Other
                                                          Costs


   Questioned Salary Costs      1                    $6,284,342                $6,284,342


   Total                                             $6,284,342                $6,284,342
   Source: OIG.



   Management Comments and OIG Analysis
   Management Comments: FEMA concurs with the recommendation. FEMA stated that
   to resolve the questioned costs of $6,284,342 for new-hire salaries, NYPD supplied a
   revised Operational Proposal to delineate the costs for new-hire salaries. On September
   12, 2012, FEMA approved this amended Operational Proposal and decided to allow the
   reimbursement of costs for new-hire salaries.

   OIG Analysis: We consider FEMA’s actions responsive to the recommendation and
   consider the recommendation resolved and closed.




www.oig.dhs.gov                               4                                      OIG-13-83



                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A 

   Objective, Scope, and Methodology 

   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of this audit was to determine whether costs claimed by the Authority
   were allowable, allocable, and reasonable according to the funding agreement and
   applicable Federal requirements. Our audit covered claimed costs of $24,543,464 for
   the reported period September 1, 2009, through June 30, 2012.

   The audit methodology included reviewing FEMA project files, original grant contract
   and modifications, the Recovery Act, and relevant FEMA and OMB guidelines;
   interviewing FEMA and Authority officials; examining the Authority accounting records
   supporting amounts claimed, and reviewing NYPD payroll and accounting procedures.

   Also, we reviewed the audit working papers of Deloitte and Touche LLP, the auditing
   firm that performed the Single Audit of the Authority for the fiscal year ending
   December 31, 2011, as well as the Single Audit working papers for the City of New York,
   as it relates to the NYPD subgrant, for the fiscal years ending June 30, 2010, and June 30,
   2011. We also tested the Authority records supporting costs claimed to determine
   compliance with OMB Circular A-87, Revised, and with other terms and conditions of the
   agreement. We considered the Authority’s internal controls over the administration of
   FEMA funds as well as the internal control work performed by the Single Audit in
   determining our audit procedures.

   We conducted this performance audit between June and September 2012, pursuant to
   the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   finding and conclusions based on our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our finding and conclusion based upon our
   audit objectives.

   Our audit was conducted without the benefit of a technical evaluation by FEMA;
   therefore, our conclusion is qualified to the extent that a technical evaluation may affect
   the allowability of claimed costs.

www.oig.dhs.gov                                5                                         OIG-13-83

                                       OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Appendix B
   Management Comments

                                                                                                     t..s. I)~partment HI' Ilflmda~d SetUI1(Y
                                                                                                     Wa:,hilll1\OIl. IK21)i72




             MEMORA.NDIJM FOR:                    Anne L. Richards
                                                 Assistant Inspector General for Audits
                                                 Office oflnspectnr (Jeneral

             FROM,                               David J. Kaufman :IC',
                                                 Associate Administrator tor
                                                 Policy, Program Analysis and international Affairs

             SUBJECT:                            Response to OIG Dt8.ft Report: COSIS Clairned by
                                                 Metropolitan Transit Arlfhoriiy afNelv l'rlrk under
                                                 Transit Secu.p"ity Grants Funded by the Recovery .'lei
                                                 (iob code 12-146-AUD-FEMA)


             The Federal Emergency Management Agency (FEMA) apprec-iates the opportunity to review and
             respond to the Department of Homeland Security (DHS) Oflke ofTnspecrOf General (010) DrafT
             Report, (~()SrS Claimed by Jlelropoiiran Yhm'iif Authoril}' O{.VC1V YO/'I{ under n'm1sit Security Gran!s
             FlImir!d hy the RecoveryAc{ As noted in our response to your recommendation beJo'\v, FE'vlA has
             been working to resolve the issues idclltiftcd in this audit.

             Recommendation: Wc recommend that FEMA's grant officer resolve the $6284.342 of questioned
             costs

             FEMA Response: FEMA cone-tors 'Nith OIC;"s recommendation. To resolve the question Dfth",
             $(:284,342 costs (If ilcw~hire saIzries, the NY?V ~uppj;cc it revised Opccatiolwl Pw!)osal (erKlosed)
             wn:ch d':JT'Y deiineah~s thc')sc costs h:lt ,,{'W bin: salaries, lhe f'\;-\vTitc new stHt:s th2ot:

                                                                                                    ;;lx·montaNes. Y Ol'kP{}lic2
                               ; ;cc.,"n,,'," },;)l::,~e AC'Jd:.'my                                                     bureau_
                               %'nJ." rcim1:mrscrnCT\1:
                                      tlJSCbCTS'.


             {)n '~f:;'I:~~~:::nf~':I;'120 1 2FTJvL,\ approved thi;; ;)rm~nded OW'I',1'''''', ]>mpo:,,,-:,1, and decided     ;,;l!fhY
             tiF: n                     uf cost:; Fiji _ce\\' hin' ~Alw.i;;:s ;;;;          Pag,,- 24 of FI' 2009 .ilnu:,! lum
                                                                                          (,,~,",'(Jd "   aNd Ap/'1!icaii'!?! i</t, which




www.oig.dhs.gov                                                        6                                                                        OIG-13-83
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security




                           "1. Operatior:.al Packages. Three OPacks have been developed to support
                           operational activities. These OPacks arc available Cor h.mding to eligible
                           transit systems listed in Table 2. Certain law ent"iJrccment agencies are also
                           eligible as subrecipients of eligible tTimsit systems. 'fransit systems that meet
                           the eligibility requirements can apply for funding to support one or morc or
                           the three available OPacks through the hiring of new officers. DHS considers
                           OPacks to be effective tactics for supporting the FY 2009 funding priorities of
                           the ARR/\. TSGP .. ·

             FEMA believes that these actions meet the intent of the recommendation and requests that the
             recommendation be considered resolved and closed. Again, we thank you for the opportunity to
             review and comment on the recommendation conceming your 11nal report. Please do not hesitate 10
             contact our Audit Liaison OHice point of contact. Gary McKeon at 202~646~1308 with any questions
             or concerns regarding our response,


             1 Enclosure
             As slated




www.oig.dhs.gov                                              7                                                  OIG-13-83
                                            OFFICE OF INSPECTOR GENERAL
                                                   Department of Homeland Security




                                             A"H:r i(~;m  Recovery nnd Reinvestment Act of 2009
                                                         Trllnsif Sccllril,Y Grant r"rog ..arn
                                                            NYII)) OI'£'}'(IIional P/'('iposais

           L nder this gum!, whi(~ h is a lhrcC' I)) year pro"rmn . the N \:' jJD seeks $35.904 .000 to establish and opcrDte
          twenty six (26 ) Anti -Terrorism Tellm" in the:"' YC TI,,,n~it Sub\vay system a~ we ll as (J11 N YC T ransit' B us~s . ...
          ,"'loll: . While {hi:} program/unds Operallfllfl'll ami 0'11' /10/ J.WofI!ClS. tllis SII" JnWI) \"I!!"\"I!$ ol1ly Jo ilddr i!SS rhe
          ATPDs Operationu} proposal.

          One o flhe purP(}~" nf the Ame ric.m Recovery and Reinvestment Aet <01' 2009 (ARRA) is the cre<.lt ion ofj()bs.
          Funding 3\'3ilabl e in the Transit Sccurily Gram ProgruOl unde r {he ARRA. w ill accompl ish :.illS ami a[ lhe sam!!
          lime allow Ihe TSOP \{I continue HlCllsi ng o n rhe liSt': o f \'isi b1c, unprediclabl~ deterrence through thc '.lSC of
          Operation Package.s (OPlIch): I.:::.minr:: Ic::u ns. rnobilE' explosive dc(cction :,;cr-ccning Icmns. and Anti-Te rro rism
          Teams.

          -me NYPD's Opcf"a tionall)ro)'yJ:iul support·s the purposes of the ARRA as fo llows:
                  The NYPD wo uld h ire 104 additional p()lice officers te b:: a:;signcd to the Traasit Bun;au upon
                  l~um plc l iun   or
                             Acad emy train t!lB s nd hmelw nnentMion

                  The gnllll would fWld newly hin::u ollk<.:r costs of lu il six-month NYPD Pol ice: Academy T raining, and
                    90-day oriciltation pe riod in the hilt Cat,;, including reimbursement of straight-time sui cry and fringe
                  ;it
                  costs of the 104 nc\\'ly hired m ember!-!

          •       Upon assignment of these new oriiccrs to operating: d istricts (post training and ori ~Ht ati(}li) 104
                  experienced officer,. from thMe dis!rkl~ w f)\1 1d IhI~ll je deployed to twenty six (26) newly establi shed
                  --A mi-TcrmrisJl1 TCam s" wi thil-, :'l1c NYPD's Trlm:'lit Hurcau 011 il fuI! bne basi!!. Thi!' backfill method is
                  prcfclred since it avoid.:; plal.:ing new. k~£ expt:=ri(! llccd OnkeN illtO the _"n ti -T~ rrn ri g,m Te<lms ,

          •       The gran t would then fund llw tOlal Pelsl)l1l1d Scr vir.;c cosL'i of the memhers of the fu lly constituted
                  Anti-Terrorism Teams (cxperiem:.:-..:I, rea:o>sigl1cd oflkcrs), :'or the remaining period ,.at cos:s c~ l imaled :0
                  be S5&,85 1.564. nlC grant would fund 534,8 12,960 Of lhi5 amounL

          •       &ch An ti·Tcn:onsm team wou:d cunsist {)ffotlr un iformed mem bers ofthc ?olicc Department di vided
                  inlu , ....'0 ekments: ()VC" and coven.

          •       E<1ch :-nember of the Anti-Terrorism Tc.a:n WI)uld reC'::ivc th~ appropriatt: training, I.e. Plajl1¢lothell,
                  Bd-,[w{{:r:1l l;rlicalor. iU";d SurvciUal1ce !J(:t;::;.:tion training Com~e .swdcs will be prillleri :it an e1llcnded
                  ':'.)Si ufSI .OI6.


                  FVI1(iing in the anmunl uJ" $1,090.024 'W(}lJd hl~ IJ:\cd i() purchase ecp ipmcm ~JJr ~ildl memi;IL't of all 26
                  l:eams, At :l C('c;t of :j;4! .924 per 1'I~ ..ml. dw ~quip!1lcnt w(tu!c in<:iu{k- Ix;uvy bfl mS,k~ vests, t.ac1.icai
                  hdmcL~ , [" dj ;;:alllQbtl.~r~. C(w(..~rt ~lolhi!1g,   and slIfv.;;:,il!ancc cqu ; pl )l\~nr

                  reams: ,yoll;,;l b,~ assigm:d to the NYC Tmnsit             SUhW1~Y    ."i:y:>kw d:-; 'Ad! i:b (HI NYC Tram:f Bilse,,," s("'Tvlng
                  :.igh-vokme, I1Uill tlnrouV)J-ihn."s       (:~tyw i dc_




www.oig.dhs.gov                                                                  8                                                                    OIG-13-83
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix C
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Departmental Recovery Act Coordinator
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Branch Chief, Transportation Infrastructure Security
   Chief, Audit Branch, Grants Program Directorate

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  9                         OIG-13-83
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
